Offic~   of Inspector General
            United Stale 5
  International Trade CommiSslCO




                          Audit Report No. OIG-AR-04-00

           Evaluation of Personnel/Payroll and Financial Services
                    Provided to the Commission by the
                         Department of the Interior

                                   July 25, 2000
INSPECTOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436

  July 25,2000

  TO:     THE COMMISSION

  We hereby submit Audit Report No. 0IG-AR-04-00, Evaluation of
  Per.I'IJIIllcl/Payroll and Financial Services Provided to the Commission by the
  Department of the Interior for the Commission's implementation of our
  recommendations.

  The Commission must constantly strive to improve efficiency, reduce
  paperwork, streamline procedures, and increase the productivity of its
  workforce. Information technology is a primary means for achieving these
  goals. It is particularly important to the Commission that its administrative
  systems be improved and modernized through the application of information
  technology, since these systems must provide the underlying support for all of
  the Commission's mission-related functions.

   In seeking to modernize its administrative systems, the Commission faces
   unique challenges. These challenges are partly the result of its reliance on
   another agency, the Department of the Interior (DOl), to provide
   personnel/payroll and financial management processing services. Since DOl
   provides its services to many other agencies, it is difficult for the Commission
   to implement changes in these services to meet its own unique needs. This has
   fostered a tendency among some of the Commission's administrative offices
   to "go it alone" in implementing the Commission's administrative processes.
   This has resulted in an over reliance on time-consuming manual procedures
   and a lack of integration among administrative systems.

   The purpose of this audit was to determine: (I) how effectively the
   Commission is currently using the personnel/payroll and financial
   management services offered by 001, (2) what additional or new services
   offered by 001 the Commission should consider adopting, and (3) how
   personnel and financial management information can be provided in a timely
   and effective manner to all segments of the Commission that require it.

   Based on our audit. we found that the Commission was not effectively
   utilizing current 001 services. Problems noted ranged from a failure to use
   available services to a lack of control over work being done by 001 for the
Commission. We found that the Commission could use some new or
additional services provided by 001. These included an on-line data mart of
personnel information, a data warehouse of financial information and an
employee self-service feature. We also found that 001 could provide more
assistance in meeting the Commission's requirements for dissemination of
timely and relevant personnel and financial management information. We
reached this finding after conducting an e-mail survey of Commission
managers and incorporating their information requirements into an example
of a periodic report that could be generated by 001.

As a result of our findings, we have made recommendations for improving the
Commission's relationship with 001, for implementing new services and for
improving the flow of information to and within the Commission. The intent
of these recommendations was to provide a blueprint for modernization of the
Commission's administrative systems through improved and expanded
application of information technology.

An exit conference was held with the Director of Administration on April I I ,
2000. The Director of Administration concurred with the findings of this
report. On June 30, 2000, the Director of Administration provided a plan to
implement the recommendations contained in this report. That plan was
approved hy the Chairman and is attached a, ~




                                                   Dev       esan
                                                   Ac 109 Inspector General
                                                         OIG-AR-04-00




          Audit Report No. OIG-AR-04-00

Evaluation of Personnel/Payroll and Financial Services
         Provided to the Commission by the
              Department of the Interior
                     July 25, 2000




                                      Office of Inspector General
                                           u.s.   Int,mhlholJu} TrdJe   ConnnissjQtl
                                                                              OIG-AR-04-00


                               TABLE OF CONTENTS

                                                                                                  Page

I.   BACKGROUND                                                                                          I

II. OBJECTIVE                                                                                            2

III. SCOPE AND METHODOLOGY.              ,                                                               2

IV. THE COMMISSION-DOl INTERAGENCY PROCESS                                                               3

V. COMMISSION'S CURRENT AND FUTURE UTILIZATION OF FPPS                                                   5
     A. Current Utilization of FPPS                                                                      5
     B. Personnel Reports        .                                                                       8
     C. FPPS 2000 Initiatives                                                                            9
     D. Employee Express                                                                                 9

VI. COMMISSION'S CURRENT AND FUTURE UTILIZATION OF FFS                                                II
      A. Current Utilization of FFS                                                                   1I
      B. FFS Financial Management Reports                                              .            001 I
      C. Future FFS Related Services. .                                                       ,       13

VII. COMMISSION REQUIREMENTS FOR NEW SERVICES                                                 ,         14
      A. Automation                                                                                     14
      B. Integration                                                                                    14
      C. Government Performance and Results Act (GPRA)                                                  14
      D. Management Information            ,                                                            IS

VIII. CONCLUSIONS AND RECOMMENDATIONS                                                                   IS

Appendix I - Current NBC Clients             ,,                                                         I-I

Appendix II - FFS Reports Available to the Commission                                               II-I

Appendix III - Revised Sample Resource Utilization Report                                          III-I

Appendix IV - Memorandum from the Director of Administration to the Acting Inspector
General, dated June 30, 2000 (AD-X-065)                                              IV-I




                                                            Office oflnspeetor Geneml
                                                                 u. S, Inteml1tim,al Trade Commission
                                                                                    OIG-AR-04-00


I.     BACKGROUND

In April 1990, the International Trade Commission (Commission) began utilizing the
Department of the Interior's Administrative Services Center (DASC) in Denver, Colorado, to
provide accounting services for the Commission. Prior to that time, the Commission had
performed the accounting function entirely in-house. At that time, and up until 1996, the
Commission's payroll processing was performed by the General Services Administration (GSA),
and personnel processing services were provided by the Department of Energy. In order to
integrate these two functions, the Commission selected DASC to add personnel/payroll
processing to the accounting services that it was already providing. The Memorandum of
Understanding (MOU) implementing the agreement between the Commission and DASC was
signed on September 29, 1995, and remains in effect today.

In 1999, DASC became the National Business Center (NBC) in the Office of the Secretary of
the Interior. NBC (nbc.gov) provides personnel/payroll services and financial management
processing services on a cost-reimbursable basis through a Department of the Interior (001)
working capital fund. NBC currently provides services to 44 Federal Government organizations
(see Appendix I). NBC has approximately 450 employees and a $40 million annual budget.

NBC provides personnel/payroll services to its clients through the Federal Personnel Payroll
System (FPPS), which NBC developed in-house. Clients are charged for services based on the
number of W-2's processed. The charge per W-2 includes costs associated with FPPS
development/improvement. AIl NBC clients
                                                   Figure 1          NBC/USITC
pay the same W-2 charge. In fiscal year                               Business
(FY) 1999, the charge per W-2 was                                    Relationship
approximately $160.
                                                        DOl
                                                                          Electronic Notice
NBC provides financial management
processing services through the Federal                 NBC                                 Funding     USITC
                                                              Payments
Financial System (FF S). American                                            OPAC
                                                                                      .1

                                                                                      .,
                                                                                           Authority

Management Systems (AMS) developed and
owns FFS. NBC charges clients for FFS
services based on the number of System
                                                        I
Resource Units (SRU's) used. Clients pay
additional charges for custom reports or other
specialized services they request.               FPPS         FFS


For both FPPS and FFS services, NBC bills
and collects from the Commission through
the Treasury's On-line Payment and
                                                                         Accounting/Financial Service
Collection system (OPAC). Figure I illustrates
the current business relationship between the
Commission and NBC.
                                                                                Payroll Services




                                                                Office o(Inspeetor General
                                                                     o.s. Intem.:rti01hl/ Trade C;nnmissioJH
                                                                                               OIG-AR-04-00


II.     OBJECTIVE

The objective of this audit was to identify and evaluate services available from DOl and make
any recommendations for improvements in the Commission's utilization of these services as well
as for new services the Commission should consider adopting.

III.    SCOPE AND METHODOLOGY

Our audit was conducted between October 28, 1999, and January 14,2000, at the Commission.
It was conducted in accordance with Commission Directive 1701.2, Audit and Inspection Policies
and Procedures, and the GAO's Government Auditing Standards. We reviewed applicable
statutes and Office of Management and Budget (OMB) guidance relating to information
resources and financial management. We reviewed Commission directives and other
documentation on Commission policies and procedures for personnel/payroll, financial
management, information resources, procurement and organization. We also reviewed
documentation from DOl regarding NBC and describing FPPS and FFS.

We interviewed various Commission personnel, including the Directors of the Offices of
Administration (AD), Personnel (PN), Finance and Budget (OFB)I, and Information Services
(OIS). We also interviewed the Directors of the Applications Management Office and the
Financial Systems Division NBC.

Based on information from these sources we developed a description of the Commission's current
utilization of FPPS and FFS services provided by NBC. We evaluated the effectiveness of the
Commission's current utilization of these services. We then developed a description of new or
additional services that NBC could provide to the Commission.

We documented the Commission's requirements for new personnel/payroll and financial
management services based on external guidance and on the foreseeable needs of the
Commission. To assist in this task we conducted a survey of the Commission's managers to
determine their requirements for personnel and financial information.

As a final task, we developed recommendations for better utilization of current NBC services and
for initiation of new services to meet identified Commission requirements.




         I Effective May 10,2000, OFB was abolished. Finance/accounting responsibilities were assigned to a new

Office of Finance, and budgeting responsibilities were assigned to the Director, AD.
                                                                             Office oflnspeetor General
                                                      2                            o. S. 1l1tenwtiOJwJ Trade Commisf>iQ11
                                                                                                            OIG-AR-04-00


IV.       THE COMMISSION·DOI INTERAGENCY PROCESS

From FY95, when the MOU between the Commission and NBC went into effect, through FYOO,
the Commission will have incurred total charges of $1,164,033.42 for FPPS and FFS services.

Table I provides a breakdown of these charges by category and fiscal year. Also, shown is the
percentage year-to-year increase in total charges. According to the MOU, such year-to-year
increases are limited to the increase in the OMB inflation factor unless there is a change in the
services offered or the Commission requests optional services. This limitation has not been in
effect because significant upgrades have been made to FPPS and lesser upgrades to FFS during
the FY95-99 period. The Commission has also requested and received a significant amount of
optional services, primarily relating to FFS custom reporting. Per unit costs for personnel/payroll
processing and FFS computer resource usage have actually declined during the time the MOU
has been in effect.


Table 1 - Commission Billings/Revenue Collected ($)

 Line #   Cateaarv                         FY95         FV96        FY97         FY98         FY99       FYOO {ProL\          Total
          FFS
      1    FFS Accounting Services        32,000.00    34,000.00    29,000.00   31,000.00    61,272.42     95,000.00         282,272.42
      2    ADP                            23000.00     33000.00     39000.00    37000.00     38000.00      43000.00          213 000.00
                       Sub Total          55,000.00    67,000.00    68,000.00   68,000.00    99,272.42    138,000.00          495272.42
          FPPS
      3     Personnel/Payroll Process.    57,000.00 255,602.00      59,000.00   81,000.00   69,000.00      80,000.00         601,602.00
      4     FPPS Training                                              600.00    1,000.00    1,200.00                          2,800.00
      5     FPPS 2000 Development                                                           16600.00                          16600.00
                       Sub Total          57,000.00 255,602.00      59,600.00   82,000.00   86,800.00      80,000.00         621,002.00
      6   Telecommunications               5,000.00    14.372.00     8,971.00    7536.00      7140.00        4,740.00         41.1:>9.00

      7           Total                  117,000,00   336,974.00   136,571.00 157,536.00    193,212.42    222,740.00       1,164,033.42
      8   Year-to-Year Increase                         188.01%      -59.47%      15.35%       22.65%         15.28%




The projected cost for personnel/payroll processing (line 3, Table I) in FYOO is $80,000, which
is based on an estimate of 498 W·2's at approximately $160 per W-2. We found that 470 W-2's
were actually issued to Commission personnel in January 2000. If this number had been used,
the projected cost would be approximately $4480 less,

Budget planning for FPPS and FFS is accomplished by an annual budget memorandum
submitted by NBC to the Commission. Budget levels are discussed and negotiated between NBC
and OFB and are subject to adjustment until the budget memorandum is actually submitted.
This budget memorandum identifies the final costs to be charged to the Commission in the
current year and estimates the costs for the following two years. Table 2 (next page) shows the
cost data submitted for FFS in the budget memorandum dated May 28, 1999.

The final cost in the budget memorandum provides the basis for charges to the Commission for
the year. Since this final cost is arrived at before the year is completed, it does not reflect actual
costs incurred, For example, the final cost for FFS technical services for FY99 as billed to the
Commission via OPAC and as shown in Table 2 was $30](. Actual cost incurred, however, was
$78K. According to the MOD, actual costs for the preceding year are to be considered in
                                                                                        Office oflnspeetor General
                                                               3                                o.s. ItdenwfionuJ 'Tn.Ide Commisl5ion
                                                                                                 OIG-AR-04-00


developing the cost estimate for the following year. Cost overruns and underruns, however, are
not directly recoverable by either party.

Table 2 -FFS and FPPS Budget ($)
 Line                                             FY99                      FYOO                        FY01
  #     Category                                  Final          Estimate          Projected            Estimate
        Federal Financial System (FFS)
  1             System Admin                          9,000.00        10,000.00          9,000.00              9,000.00
  2             Operations                           21,000.00        22,000.00         26,000.00            27,000.00
  3             Technical Services                   30,000.00        31,000.00         60,000.00            62,000.00
  4             Computer Processing                  38,000.00        40.000.00         43,000.00            58,000.00
  5                     Sub Total (FFS)              98,000.00       103,000.00        138,000.00          156,000.00
  ()    Telecommunications                            4,740.00         4,740.00          4,740.00              4,740.00
  7     Federal Personnel/Payroll System (FPPS)      69,000.00        69,000.00         80,00000             82,000.00
  8                    TOTAL                       171,740.00        176,740.00        222,740.00          242,740.00



The OFB receives an electronic notice from NBC every quarter indicating the amount charged
to the Commission through OPAC. OFB approves and processes this notice as if it were an
invoice, although its only significance is for record keeping. OFB does not receive from NBC any
document or report that shows total actual costs being incurred.

The absence of actual cost reporting is one factor that has contributed to a lack of control over
optional service requests being made to NBC by Commission personnel and the consequent
increase in costs for FFS technical services. Another factor is that requests are being made
informally and without considering the resources required, even though the MOU specifies a
formal request as the basis for providing optional services. Also, there is no central Commission
coordination of these informal requests being made by various individuals, The result is that the
cost of FFS technical services has been increasing without any real understanding on the part of
Commission personnel as to why they are increasing.

Since OIS is the Cost Center Manager (CCM) for information services support, OFB obtains
approval from OIS for FPPS and FFS funding. To do this, OFB prepares a Form 5\ , Requisition
for Equipment or Services, which is submitted to OIS for approval. Examination of recent Form
51 's submitted for this purpose indicates there is very little description or justification of the
proposed services accompanying the form. The result is that OIS has very little information for
judging the value or need for the proposed effort. As an example, we found that OIS was
unaware of the specifics of a data warehouse project that OFB had initiated at NBC.

Once a Form 51 is approved, it is forwarded to a Commission procurement specialist who
prepares a Form 30, Amendment to Contract, or an Interagency Agreement Form to reflect the
additional funding. Again, these forms are for record keeping purposes only, since nothing is
actually sent to the vendor, in this case, NBC.

To keep its clients informed on the status of FPPS and FFS, NBC has formed user groups for
each system. The FPPS User Group meets quarterly and the FFS User Group meets annually.
At these meetings, users consider proposed changes or improvements to FPPS and FFS. The
FPPS User Group may approve changes or improvements to FPPS that can be accommodated

                                                                               Office oflnspeetol- General
                                                      4                              u. S. ItltenhltioHdl Tru.de CmnmissioH
                                                                                          OIG-AR-04-00


within the eXlstmg budget. Changes or improvements that have a budget impact must be
approved by 001. Recommendations for changes or improvements to FFS must be submitted
to the system owner, AMS, through the Software Advisory Board, of which NBC is a member.
A review of attendance lists for the past two years indicates that the Commission is represented
at user group meetings by OFB personnel. OIS and Office of Personnel are not represented at
these meetings, nor do they receive any feedback from OFB attendees. There were no
Commission representatives at the last FPPS User Group meeting held on February 23-24,2000
in Denver.

There are other agencies that provide similar personnel/payroll and accounting services for federal
agencies. Two such agencies are the Department of Agriculture's National Finance Center (NFC)
and GSA.

NFC and GSA charges are roughly equivalent to those of NBC. For personnel/payroll services,
NFC bases its charges to clients on services actually used, as opposed to the fixed rate that NBC
charges its clients. In FY99, NFC charged agencies an average rate of $1 02.36 per employee for
personnel/payroll services. This average includes agencies that use all NFC services as well as
some who use only a few services.

GSA charges $75 per employee per year for payroll services alone. For an additional $15 per
employee per year, GSA provides its clients an internet-based time and attendance system
(feddesk.gsa.gov). GSA also provides at no additional charge an internet-based employee service
site that allows employees to view their leave and earnings statements as well as make changes
to their personal data (payroll.gsa.gov). For non-payroll services, GSA charges clients a variable
rate based on actual computer processing expense and billable employee hours.

V.     COMMISSION'S CURRENT AND FUTURE UTILIZATION OF FPPS

The FPP$ and FFS applications software is operated on an IBM 9672-R56 mainframe computer
located at NBC, Denver (www.den.nbc.gov). Current telecommunication assets used by the
Commission to provide a link 'with FPPS and FFS include a Cisco 2513 router located at the
Commission and a dedicated 56k data circuit leased from Bell Atlantic through 001. The 56k
data circuit connects the Commission to the Main Interior Building (MIB)in Washington, DC.
The connection between MIB and NBC, Denver is through DOINET. The Commission currently
pays 001 $300 per year to maintain the Cisco router, $170 per month to lease the 56k data
circuit and $200 per month for DOINET access. We found there is a potential to avoid these
telecommunications costs if the Commission could use its existing Internet connection to provide
access to NBC, Denver. We noted that 001 is abandoning DOINET in favorofthe Internet and
that the Commission will have to provide new connectivity to 001 by September 30,2000.

       A.      Current Utilization of FPPS

The Commission's policies and procedures for time, attendance and payroll services are
documented in USITC Directive 220 I. I, Time, Attendance and Payroll Services Handbook.
This directive was last updated on September 18, 1992 and thus does not reflect current FPPS
utilization and procedures.

                                                                     Office of Inspector General
                                                 5                        u. S. Intcnli..ltil.muJ Trude ComtnissiDll
                                                                                       OIG-AR-04-00


The Commission's most basic use of FPPS is to process the payroll for its approximately 425
employees. On the Thursday or Friday before the end of each pay period, the designated time-
keepers for each office enter the time and attendance (T&A) information and labor cost codes
for each employee into the FPPS T&A subsystem installed on their desktop computers. After
entry by the timekeeper, the T&A information is certified by an authorized supervisor and then
electronically forwarded to OFB by COB Friday. On the Monday following the end of the pay
period, OFB checks the T&A data, primarily to verify the number of time sheets matches the
number of employees on board. By COB Monday, OFB electronically releases the complete
batch ofT&A records via DOINET to NBC's Denver office. Until the T&A records are released
to NBC, timekeepers can make any necessary changes and obtain re-certification through their
desktop terminals. After release by OFB, however, such changes must be made through a
paperwork process.

When NBCreceives the T&A records late Monday, it begins its own quality control checks. Any
errors or discrepancies found are corrected, sometimes after consultation with OFB. On the
Tuesday following the end of the pay period, the T&A data is processed on NBC's IBM
mainframe and electronically transmitted to the Treasury Department very early Wednesday
morning. NBC provides the Treasury Department its final certification of the T&A data on
Wednesday morning after the data has been received by Treasury.

After receiving and processing the T&A data from NBC, the Treasury electronically transmits
payment data to the Federal Reserve which then makes electronic funds transfer (EFT) payments
to employee financial institutions. EFT deposits normally appear in employee bank accounts on
the Friday following each pay period. All Commission employees are required by law to receive
salary payments by EFT. NBC mails Leave and Earnings Statements for the pay period to each
employee. These are normally received by the second Monday after the pay period ends.

The Commission is one of a group of agencies whose T&A data is processed by NBC on the
Tuesday following the end of the pay period. The employees of these agencies receive EFT salary
payments on the first Friday after the pay period. There is another group of agencies whose T &A
data is processed one day later on Wednesday. The employees of these agencies do not receive
EFT salary deposits until the second Tuesday after the pay period ends.

One current issue in T&A processing is that FPPS deletes compensatory time for some
Commission em ployees after one year from the date earned. Commission policy allows employees
to maintain a balance of 50 hours compensatory time unless the leave was earned during the last
three pay periods of the leave year. NBC is currently accommodating this policy by manual
processing pending a system change.

A listing of all the services currently available through FPPS is provided by Table 3 (next page).
This table lists those services that are currently being used by the Commission and those services
that are not currently being used by the Commission.




                                                                    Office oflnspeetor General
                                                6                        u.s. IntcmutiolluJ Trad.c Commission
                                                                                                 OIG-AR-04-00


As shown in Table 3, the Commission does
not use the FPPS Standard Form (SF) 52                Table 3 - Current FPPS Services
processing service. This service allows a
                                                      Services Used by Commission
requesting office to initiate an electronic SF-       -Standard Form 50 processing
52, Request for Personnel Action, from a              -CPDF information for OPM
desktop computer by selecting appropriate             -Pay checks
                                                      -Electronic funds transfer and needs
FPPS menu commands and entering the
                                                      -Labor cost distribution
employee SSN and other data specific to the           -Payroll accounting
action being requested. The SF-52 is then             -Leave and earnings statements
                                                      -Payroll taxes
electronically forwarded for approval by one
                                                      -W-2 Form processing
or more approval authorities. After final             -Payroll related information for Treasury and OPM
approval, the SF-52 is electronically                 -Online and offline training
forwarded to the servicing personnel office           -FEGLI Insurance
                                                      -Health Benefits
(SPO), where it is then released for updating         -Tickler and suspense systems
the FPPS database and for automatic                   -Personnel reports
generation of an SF-50, Notice of Personnel           -SF-l I3 and A-93 reports on FTE ceilings and Federal
                                                       employment
Action. SF-52's can also be initiated by the
                                                      -Retroactive processing of transactions and pay
SPO or automatically by FPPS for certain              -Bonds
types of actions, such as Conversion to Career        -T&A processing
Appointment.                                          -Payroll deductions
                                                      -Thrift savings
                                                      -Retirement (CSR & FERS)
Under the Commission's current procedures,            -Tax account maintenance
an office requesting a personnel action enters        -Payroll reports
                                                      -Employee hotline
data on a paper SF-52 form. The form is then          -Training and user manuals
sent by office mail to the Office of Personnel.       -Garnishrnents & tax levies
After the SF-52 is received in the Personnel          -Leave Accounting
                                                      -Online updates to employee master files
Office, the Personnel Assistant manually
                                                      -Service history
enters data from the SF-52 into FPPS. FPPS            -Pay and leave audits
then generates an SF-50 Notification of               -Debt Collection
Personnel Action. The Commission's                    -Personnel transaction processing
                                                      -Organization and position data processing
Director, Office of Personnel, indicated that
the reason for not using the FPPS SF-52               Services Not Used by Commission
processing service is that the low volume of          -Standard Form 52 Processing
SF-52 personnel transactions did not justify          -Training records

the effort involved in automating them. In
FY99 the Personnel Office processed 347 SF-
52's.

The Commission also does not currently use the training records service available from FPPS.
If the Commission did use this service, it would improve the comprehensiveness of the personnel
information available in the FPPS database. Since all FPPS clients pay the same flat rate for
personnel/payroll services, the Commission does not realize any savings by not using this or any
other FPPS service.




                                                                             Office o{Inspeetor General
                                                  7                               us. InlerJ1dticmlll Trude C.;nnmis;;im1
                                                                                        OIG-AR-04-00


       B.     Personnel Reports

The Commission's Personnel Office prepares six recurring personnel reports for submission to
other Commission offices. These reports are:

Monthly Report - This is an overview status report on Commission personnel. A report on the
status of all Commission personnel is submitted to the Chairman, the Director of Administration,
the Director, OFB, the Director, EEO and the Director of Operations. Reports on the status of
employees within each office are distributed to the Directors of each office.

Weekly Transaction Report - This is a report on Commission employment levels and changes
in employment levels, including accessions, separations and promotions. It is submitted to the
Director of Administration for inclusion in a weekly resource transactions report distributed to
the Commissioners and the Directors of eight major staff offices.

Employment Monthly Report - This is a report on employment levels and changes in
employment levels. It contains the same type of information as the Weekly Transaction Report.
It is submitted to the office of the Secretary of the Commission.

PATeD Report - This is a monthly report submitted to the Director, EEO. It contains summary
information on accessions, separations promotions and minority status for Professional,
Administrative Technical, Clerical and Other (PATCO) employees.

Monthly Update (Union) - This is a report on accessions, separations and promotions for
employees within the Union bargaining unit. It is submitted to the President of American
Federation of Government Employees (AFGE) local 221 I.

Time-off Report - This is a monthly report of time-off awards to Commission employees. It is
included on an occasional basis in the Director of Administration's weekly Resource Transactions
Report.

The preparation of these reports is largely a manual paperwork process. Personnel Specialists
make pen and ink changes to a paper copy of a prior report and submit the changes to the office
staff assistant, who then records the changes in a WordPerfect master file. After all changes have
been received and made, copies of the report are printed and sent to recipients via office mail.

Most of the information used to produce these personnel reports has already been entered into
the FPPS database in order to generate SF-50 personnel action notifications. For this reason, it
would appear that FPPS could be used to automatically generate these personnel reports. This
would streamline a process that now involves three repetitions of manual entry of the same data:
once by a requesting office on an SF-52, once by the Personnel Office to generate an SF-50, and
once again by the Personnel Office to generate personnel reports. The Personnel Office does use
FPPS to automatically generate certain reports required by OPM. These reports go directly from
FPPS toOPM.




                                                                    Office oflnspeetor General
                                                8                        LI s.   !,dcmaf/(Jtw/   Trade Commiss,ou
                                                                                   OIG-AR-04-00


       C.     FPPS 2000 Initiatives

NBC is currently pursuing a number of initiatives to improve FPPS under the FPPS 2000
program. NBC clients are contributing a pro-rata share of the development cost for two of these
initiatives (Data Mart and CUI Interface). The Commission's FY99 share of this cost was
$16,600 (line 6 of Table I). Current initiatives include the following:

              I.     Data Mart (datamartl.nbc.gov)- Under this initiative a commercial
                     relational data base has been added to FPPS along with an advanced
                     database access tool (Brio Insight) to allow ad hoc queries and reports.
                     This Data Mart became operational in January 2000. The Data Mart is an
                     Oracle database located on the NBC IBM mainframe. It is currently
                     updated on a nightly basis by the FPPS ADABAS database management
                     system, also located on the mainframe. The Brio Insight query software
                     is located on a separate server connected to the mainframe. At present,
                     access to the query server is only through DOINET. This means that the
                     Commission's access to the query server is limited by its 56k link to
                     DOINET. The Commission recently ordered a license for Brio Insight,
                     but has not yet requested any training in its use.

              2.     Graphical User Interface (GUI) - The purpose of this effort is to provide
                     a point-and-click, Windows-like interface for FPPS users. This would
                     replace the current IBM 3270 interface. Almost all of the software
                     currently used by the Commission has a Windows-based user interface.
                     We find it likely that a similar interface for FPPS would improve systems
                     standardization and employee productivity. Most users we interviewed
                     expressed dissatisfaction with what they perceived as a lack of user-
                     friendliness of the current DOS-like FPPS interface.

              3.      Improved Human Resources (HR) Functionality- This initiative would
                      use commercial off-the-shelfsoftware to improve HR functionality of FPPS
                      and is still in the early planning stage. This effort is currently being
                      funded by NBC/DOI and not by its clients.

              4.      Expanded Employee self-service capabilities - This initiative includes
                      automated employment verification and automated review and update of
                      employee information. The employment verification feature is an
                      implementation of a software product from TALX Corporation called "The
                      Work Number for Everyone," and is scheduled to become available in
                      FYOO. Other self-service features are under review.

       D.     Employee Express

NBC currently offers its clients access to the OPM's Employee Express service through FPPS.
Employee Express is a self-service, automated system that provides employees with immediate,
electronic access to make changes to payroll and personnel options over which they have direct
control without using forms, the mail system, or visiting their personnel office. Employees have
                                                                  Office of Inspector General
                                               9                        lIS, Inkmaliol1aJ TradfJ Commission
                                                                                          OIG-AR-04-00


round-the-clock access to the system through touch-tone telephone, computer kiosks or the
Internet. Employee Express allows employees to make changes to federal tax withholding, Thrift
Savings, direct deposit of paychecks, other voluntary allotments, home address, health benefits
selection, or any other configurable options.

Employee Express has the potential for cost savings to the Commission because of the reduced
amount of time spent by Commission employees in requesting and implementing changes to
payroll and personnel records. The Office of Personnel estimates that its personnel used 15
hours of their time to process approximately 275 requests for changes to employees' personal
information in FY99. Additional time would have been required by employees who requested
changes to go to the Personnel Office, obtain a form, read instructions, fill out and turn in the
form and return to their own office. Assuming 'h hour to complete this process, this would have
amounted to an additional 137.5 hours of employee time. Assuming the average grade level of
employees requesting changes is GS-12 step 5, this would amount to a cost of $3,836, excluding
benefits. This cost would have been saved and reallocated to other purposes during FY99 if the
employees requesting changes could have made their own changes within the 15 hours required
by Office of Personnel employees.

As of April 2000, Employee Express is offering access to employee leave and earnings statements.
The Commission could save the cost of mailing leave and earnings statements if it decided to
implement an all electronic leave and earnings statement through Employee Express. The Postal
Service charges NBC a rate of between $0.27 and $0.33 each to mail a leave and earnings
statement to each Commission employee. Assuming an average mailing charge of $0.30 and an
average of 425 employees on board, this results in a charge of $127.50 per pay period or $3315
per year. This does not include the additional costs of printing supplies and envelope stuffing.

 According to OPM and NBC, the cost of adding Commission employees to Employee Express
 would be relatively small because of the already existing interface between NBC and Employee
 Express. Based on cost factors provided by OPM, the startup cost for adding new employees to
.Employee Express would be $1.33 per employee. This expense is primarily for generating and
 mailing out new Personal Identification Numbers (PIN's). In the Commission's case, this startup
 expense would be minimal, because, since August 1998, all Commission employees have been
 provided PINS by OPM.

Based on cost factors provided by OPM, annual operating costs for providing Commission
employees access to Employee Express through 001 would amount to $901.56, or $1.94 per
employee. This assumes a total of 470 Commission employees (the number of W -Z's issued this
year) and a 5% turnover rate. This estimate also assumes no cost sharing of existing telephone
lines. If, as seems likely, the Commission is required to share the costs of existing telephone lines,
then NBC estimates that our annual cost per employee would be approximately $3.50 for a total
annual charge of approximately $1624.




                                                                       Office o/Inspector General
                                                 10                         us. Intl!rlhlti<YltaJ TrJdl! Commi,;,;im7
                                                                                             OIG-AR-04-00


VI.    COMMISSION'S CURRENT AND FUTURE UTILIZATION OF FFS

       A.      Current Utilization of FFS

The Commission currently uses FFS to perform the Commission's accounting function and to
provide financial management reporting. The various subsystem modules comprising FFS are
shown in Table 4 along with an indication of which are currently being utilized by the
Commission.

The Commission does not currently use the FFS budget preparation module and, instead,
performs budget preparation as an entirely manual process. OFB provides Office Directors with
a paper copy of the proposed budget. Office Directors make pen and ink changes to the paper
copy and return it to OFB. Office Directors also provide OFB with a signed paper copy of their
budget justification narrative, as well as an e-mail copy in Word Perfect format.

Fixed asset and inventory management is also performed as a manual process. OFB uses an
Excel spreadsheet to track asset depreciation.

The Commission currently uses a separate subsystem for procurement called PRISM that is not
tied into FFS. To initiate the procurement process, a requesting office must manually prepare
a Form 51, Request for Procurement. After approval, the Form 5 I is sent to the procurement
office in AD, where information from the Form 51 is manually entered into PRISM. After
manual entry of additional information on the vendor and type of procurement, PRISM
generates a purchase order or contract, which
is mailed to the vendor. A copy of the
                                               Table 4 - FFS Subsystems
purchase order/contract and the Form 5 I is
sent to OFB. OFB uses this information to      Subsystems Used by Commission
manually record an obligation in FFS. When     Accounts Payable
the vendor makes a delivery and mails an       Accounts Receivable
invoice to OFB, OFB mails a payment to the     Automated Disbursement
vendor and manually records an expenditure     Budget Execution
                                               External Reporting
in FFS. There is no entry of invoice/payment
                                               General Ledger
information in PRISM, although PRISM has       General Systems
the capability for acceptance of such          Labor Distribution
information.                                   Periodic Processes
                                                        Purchasing
       B.      FFS Financial Management                 Travel
               Reports
                                                        Subsystems Not Used by Commission
The table in Appendix II lists all the financial        Budget Preparation (Requires License)
management reports that are currently                   Cost Allocation
available to the Commission from FFS. A                 Fixed Assets
total of 90 different reports are currently             Inventory
                                                        Planning
available. Of these, 22 are custom reports, 59
                                                        Project Cost Accounting
are baseline reports and the remaining 9 can
be either custom or baseline.


                                                                           Office of Inspector General
                                                   II                            u.s. IutcmafiollllJ TmJe Cmmn;ssioll
                                                                                                OIG-AR-04-00


Baseline reports are standard reports that were designed into the system for use by any client.
Custom reports are non-standard reports that are specifically requested by a client. Clients are
charged for the programming costs of developing a custom report as well as the recurring costs
for its periodic production. For baseline reports, clients are only charged the recurring production
cost. The total recurring cost charged for reports depends on their size and their frequency of
production. Some of the reports identified in Appendix II are produced on a nightly basis. Some
are produced only on request.

Not all the reports produced by FFS for the Commission are actually used by the Commission.
Based on information obtained from OFB, II of the 90 reports are not being utilized by the
Commission, as shown in Appendix II. Some of the [ [ reports not used by the Commission are
used by NBC for test and quality control purposes. Whether used or not, all of these reports
continue to be produced with a resulting charge for their production."

To attempt to meet the needs of the Commission's CCMs for financial information, OFB
distributes a monthly accounting package comprised of 6 FFS reports. These 6 reports are among
those listed in Appendix II and are:

-ITC545, Obligations by Object Classification
-ITC630A, Travel Transactions FYTD
-ITC630B, Training Transactions FYTD
-ITC710, Fund Report
-ITC710B, Detail Unliquidated Obligation Transaction FYTD
-ITC710C, Detail Accrued Expenditure Transactions FYTD

While these reports are useful for some purposes, they do not provide information on personnel
utilization. This is a significant shortcoming, since personnel is the principal resource available
to Commission managers.

The monthly reports that OFB provides CCMs are not consistently timely. Figure 2 (next page)
shows the number of days after the end of the accounting month that CCMs received the
accounting reports for the period from October 1998 to March 2000. Beginning in November
1998 through July 1999, these reports were received 'within two weeks after the end of the month.

Beginning in August 1999, the reporting delays began to lengthen to as much as 66 days for the
October [999 report. The November 1999 and December 1999 reports were each delayed by 49
days and the January 2000 report was delayed by 35 days. OFB has indicated that they normally
close the books on a month 5 days after the end of the month, at which time accurate monthly
reports can be produced. However, delays in closing can occur at the end of a fiscal year or during
a continuing resolution period, according to OFB. OFB has indicated that the printing, assembly
and distribution of their monthly reports require one half day's time per month for one of their
financial technicians.




       2For example, the production cost of the weekly ITCWVIOL security report is $22 per report.

                                                                            Office ofInspector General
                                                     12                            L~ S. Inti!.matiOHJJ Tradl!. Cmnm;$:$icm
                                                                                                                                       OIG-AR-04-00


                   Fig u r e 2 • N u m be r 0 fDa y s A f te r End 0 fAr,;; l:; 0 U n tin 9 M           0   n th   fo r R e c e ip t   0   f
                                                M 0 n th ly Ace 0 U n 1in g Rep 0 r t




                                                                                                                          .,

                                               t   s                                   "

             ,--   I" ,~~:.:
                        "" I I
                          I'·'··"',   _.   ,
                                               1111111                             A"'IJ'~~

                                                               Acc01.Jnling III onlh
                                                                                              $~~,~~   O,~-9"




The distribution of these reports could be automated by electronically forwarding them from FFS
directly to recipients via the Commission's Intranet. This would eliminate the labor requirement
and delays associated with converting FFS reports into paper and sending them out via office mail.

       C.          Future FFS Related Services

Since FFS is owned by AMS, any changes or improvements to FFS are limited to those which have
been developed or can be implemented by AMS.

AMS has developed PROCUREMENT DESKTOP, a Windows-based electronic procurement
system. This system automates all phases of the procurement and contracting process and
provides a full range of electronic commerce functionality. It also has an online interface with
FFS. This is in contrast to the current Commission procurement system (PRISM) which has no
interface with FFS, thus requiring manual entry of exchanged data.

NBC has the capability to develop custom reports from FFS data by client request. NBC also has
the capability to develop data marts to allow clients to make their own data queries in specific
subject areas. NBC recently developed a Budget Data Mart for the Commission and a Trial
Balance Data Mart for another client.

In FY96, OFB initiated a project with NBC to develop a data warehouse, which is a multi-subject
assemblage of data marts. Because NBC does not separately account for projects charged to
Commission Technical Services, it was not possible to determine actual costs of the data
warehouse effort to date or how much of these costs were actually charged to the Commission.
In FY98 and FY99, NBC spent $77.5]( and $78.1 K, respectively, on Commission Technical
Services. However, the Commission was only charged $1 OKand $30](, respectively, for Technical
Services in those years. According to NBC, none of these charges were for data warehouse
development costs.

The OFB data warehouse effort at NBC has suffered from poorly defined objectives and
inadequate technical direction from OFB. As an example, OFB could not provide a written plan


                                                                                                             Office of]nspeetor General
                                                                     13                                           u.s. [ntornati..m. ~1 Trade Comm;,;;s;oll
                                                                                      01 G-AR-04-00


detailing project objectives, schedules and costs. Also, OFB has not made the effort needed to
define the Commission's user requirements. A data warehouse designed to collect all available
information is useless if the information collected does not include the information required by
users. Also, OFB has not sought the involvement of OIS, which has the expertise, particularly in
ORACLE applications, to provide technical direction to the project. The data warehouse effort
at NBC is currently on hold pending further direction from OFB.

VII.   COMMISSION REQUIREMENTS FOR NEW SERVICES

       A.     Automation

The Commission has a general requirement for greater automation of processes in the
personnel/payroll and financial management areas. Once the initial investment has been made,
automated processes begin to pay for themselves through red uced reliance on time-consuming and
expensive manual procedures. Another reason for greater automation is the Commission's
relatively small size. Ordinary personnel turnover can leave large gaps in manual processes as in
the current situation with the Commission's Budget Office where the only two positions in the
office are vacant. Automated processes can compensate for these gaps. Automated processes can
also help preserve "corporate memory" by virtue of the fact that the Commission's policies and
procedures are built into the implementing software.

       B.     Integration

OMB Circular A-127(Rev.), Financial Management Systems, provides that the Commission
establish and maintain a single integrated financial management system designed to provide for
effective and efficient relationships between software, hardware, personnel, procedures, controls,
and data. This means that components of the Financial Management system, as well as
components of other systems that interact with the Financial Management System, must have
common data elements, common transaction processing, consistent internal controls, and efficient
transaction entry.

To meet the provisions of OMB Circular A-12 7(Rev.), the various subsystems (e.g. Procurement)
that comprise the overall Commission Financial Management System and the related systems that
interact with it (e.g. PersonnellPayroll) should have the following characteristics:

       -Electronic Linkage - Systems and subsystems should be capable of electronically
       communicating with each other without human intervention.
       •Compatible Interface - Data should be capable of being passed from one system or
       subsystem to another, and being accepted for processing.
       -One Time Data Entry - Data to be processed by any part of the Financial Management
       System should only have to be entered once.

       C.      Government Performance and Results Act (GPRA)

The Commission has a requirement that its financial management system support the
performance and results-based management approach of the GPRA. This means that the financial

                                                                   Office of Inspeetor General
                                                14                       u.s. IHtemational Trl.-ld'!- Commissiou
                                                                                       OIG-AR-04-00

management system must assist in the definition of goals and objectives for accomplishing the
Commission's strategic mission. It must provide for the planning and allocation of Commission
resources to meet these goals and objectives. It must also support the establishment of meaningful
criteria for measuring performance and results. Finally, the financial management system must
provide for monitoring and meaningful presentation of Commission performance in meeting goals
and objectives in accordance with established measurement criteria.

        D.     Management Information

An e-mail survey was conducted to determine the requirements of Commission Managers for
personnel and financial information. To facilitate this survey, a sample report was prepared
illustrating the kind of information that could be provided from FPPS and FFS. The sample report
attempted to display the status of all personnel and financial resources available to each manager.
Survey participants were asked to comment on the necessity for such a report, its contents, and
its frequency.

The e-mail survey was sent to the Commission's 17 major offices. A total of 10 responses were
received. Most respondents agreed with the necessity of such a report, particularly with respect
to the personnel information it provided. Some respondents suggested formatting changes and
additional information categories. With regard to frequency, the consensus among respondents
was that it should be prepared on a monthly basis with personnel data reported as of the most
recent pay period that includes the end of the month. Respondents also indicated that the report
should be prepared and distributed on a timely basis so as to maximize its usefulness for current
decision making.

The initial sample report was revised to reflect the comments received from survey respondents.
The revised sample report is shown in Appendix III. All of the data in the sample report can be
made available through either the FPPS or FFS data base.

VIII.   CONCLUSIONS AND RECOMMENDATIONS

Based on our audit we found that the Commission was not effectively using current services
offered by NBC. In the case of FPPS, we found that the Commission's Personnel Office has not
used some FPPS task automation features. This has resulted in over reliance on time-consuming
manual procedures characterized by double and triple entry of the same data. The Personnel
Office has also failed to take advantage of the recently developed FPPS Data Mart as a source of
timely and extensive personnel management information.

In the case of FFS, the Commission's OFB has also failed to take advantage of many FFS task
automation features. OFB has not given sufficient consideration to the need for integration of
the Commission's financial systems. An example is the use of an automated procurement system
that has no interface with FFS. OFB has also failed to exercise sufficient control over optional
technical services provided by NBC, and has failed to provide timely and relevant information
reporting to the Commission's managers.

We conclude that the Commission could take additional steps to improve its current working
relationship with DOL We also conclude that FPPS and FFS could be used to provide information
                                                                    Office o{Inspector General
                                                15                       u.s. IHtl2matimlU/ Trude C(JmmiS5iDJI
                                                                                   OIG-AR-04-00


reporting that more effectively meets the requirements of Commission managers. Finally, we
conclude that the Commission could make use of some additional FPPS and FFS services
currently provided or soon to be provided by NBC.

In support of these conclusions, we offer the following recommendations:

Improved CommissionIDOI Relationship

              I.     The Director, AD should insure attendance of at least I Commission
                     representative at all FPPS and FFS user group meetings and require
                     attendee(s) to circulate a report of user group meetings to appropriate
                     personnel in OIS, PN, and OFB.

              2.     The Director, AD should designate a person in the Office of Personnel to
                     serve as a point of contact for FPPS and to coordinate on all budget and
                     management actions relating to FPPS.

              3.     The Director, AD should request OIS to designate a person in 015 to serve
                     as Contracting Officer's Technical Representative (COTR) for the DOl
                     contract.

              4.     The Director, AD should designate a person in his office to serve as
                     coordinator for all requests for customized reports from DOr.

              5.     The Director, AD should request periodic reporting of actual costs of FFS
                     services being provided to the Commission.

              6.     The Director, AD should update Commission Directive 220 I. I (Time,
                     Attendance, and Payroll Services Handbook) to reflect current time,
                     attendance and payroll policies and procedures.

              7.     The Director, AD should conduct a comparative review of alternative
                     service providers, such as the National Finance Center and GSA, to verify
                     the continued competitiveness of DO]'s services.

              8.     The Director, AD should request the assistance of OIS to determine
                     whether the Commission's Internet connection can be used to replace the
                     current telecommunication linkage to NBC, Denver.

              9.     The Director, AD should negotiate a reduction in the numberofW-2's used
                     by NBC as the basis for FYOO-O I FPPS charges to the Commission.

              10.    The Director, AD should request that NBC promptly implement
                     Commission policy on maintenance of compensatory time balances.




                                                                Office oflnspeetor General
                                              16                     u. s. Internatimwl Trdde Commi;:;siOJJ
                                                                                    OIG-AR-04-00


Improved Management Information

            I I.   The Director, AD should request that DOl provide periodic reports by e-
                   mail or FAX containing the information identified in Appendix III to each
                   office, division and branch head in the Commission.

            12.    The Director, AD should prepare a plan detailing the requirements,
                   objectives, schedule and costs for the OFB data warehouse project. The
                   plan should consider the integration of FPPS and FFS data into a single
                   data warehouse accessible to Commission personnel by a browser-based
                   query tool such as Brio Insight.

            13.    The Director, AD should prepare a plan for procuring any additional
                   hardware, software, and telecommunications resources needed to provide
                   Commission personnel with timely, automated access to relevant
                   information from FPPS and FFS.

            14.    The Director, AD should review all reports currently being produced for the
                   Commission by DOl and eliminate those not currently being used and
                   reduce the frequency of, or change status to "as requested", those reports
                   that are seldom being used.


Implementing New DOL Services

            15.    The Director, AD and 01S should develop a plan for implementing an
                   integrated procurement subsystem for FFS which includes electronic
                   commerce functionality.

            ] 6.   The Director, AD and OIS should develop a plan for implementing an
                   integrated budget formulation subsystem for FFS that automates
                   appropriate budget formulation tasks, allows information interchange with
                   other FFS subsystems, and meets the requirements of GPRA.

            ] 7.   The Director, AD should implement the employee self-service personnel
                   data service currently available from OPM through DOl.

            18.    The Director, AD, OIS and the Office of Personnel should plan and
                   conduct a joint evaluation of the FPPS Data Mart that recently became
                   available through FPPS.

            19.    The Director, AD should begin using FPPS to automatically generate the
                   personnel reports currently being manually produced by the Office of
                   Personnel.

           20.     The Director, AD should implement the SF-52 processing and training
                   records services offered by FPPS.
                                                               Office o{Inspector General
                                            17                       u.s.   I,den1l1tim1u/ Trade Cmmnis,;;i':}lI
                                                                   OIG-AR-04-00


21.   In light of OMB Circular A-127(Rev.), the Director, AD, should evaluate
      the FFS subsystems not presently being used by the Commission and
      determine whether the Commission should begin using any of them.




                                                Office of Inspector General
                             18                      u.s. ['JterllatiotJal Trade! ComlnissiQt1
    APPENDIX I

CURRENT NBC CLIENTS
                                                                       Appendix I




                              CLIENTS
                                          Personnell    Financel
QRGANIZAnON                                Pavroll     Accounting   Payments        Quarters
Bureau of Indian Affairs                      X                                        X
Bureau of Land Management                     X            X                           X
Bureau of Reclamation                         X            X                           X
Emergency Firefighters                        P
Fish & Wildlife Service                       X            X           X               X
Geological Survey                             X                                        X
Minerals Management Service                   X
National Park Service                         X                                        x
Office of Aircraft Service                    X
Pffice of Inspector General                    X
•
~ce of Secretary                               X
Office of Solicitor                            X
Office of Special Trustee for American Indians X
Office of Surface- Mining                      X

                                              I-I
                              CLIENTS
                                    Person nell    Financel
Q.RGANIZATI.QN                       Payroll      Accounting   Payments   Quarters
African Development Foundation          X
Agricultural Research Service                                                X
Bureau of Prisons                                                            X
Customs                                                                      X
DepananentofEducation                   X
Executive Residence                     X
Federal Aviation Administration                                              X
Federal Communication Commission                      X
Federal Labor Relations Authority       X             X           X
Federal Trade Commission                X             X           X
•
Forest Service                                                               X
General Service Administration                                               X
Immigration and Naturalization                                               X
Indian Health Service                                                        X
 Inter~American Foundation              X

                                       1-2
                             CLIENTS
                                      Personnel!    Finance!
~                                      Payroll     Accounting   Payments   Quarters
International Boundary & Water Comm                                           X
International Trade Commission            X            X
James Madison Memorial Foundation         X
Maritime Administration                                                       X
National Weather Service                                                      X
Navy (Guam)                                                                   X
Overseas Private Investment Corp.         X
Pension Benefit Guaranty Corp.            X
Presidio Trust                            X
.•Public Health Service                                                       X
Securities & Exchange Commission         X
Selective Service System                 X             X
Social Security Administration           X
Truman Foundation                        X
U.S. Trade and Development Agency        X

                                         1-3
             APPENDIX II

FFS REPORTS AVAILARLE TO THE COMMISSION
APPENOlxlI                                                   ITOREPOftTUTIUZAnON
                                                                        1"'
                                                             AS OF DECE"BER ii, 11"
                                                                                                 LAST
INFOPAC      BASEUNEI REPORT OESCRIPnON                         $UPSVS FREQUENCY OF REPORT       RUN        USER ACCESS    U5ITC
REPOtn 10    cusroa                                                                               O,lTE     TO REPORTS    Uses?
ITC.
  AcERR         B     ACEXCP                                     PP            ANNUALLY            1112199 " ...
                      AC Excepucn offline error report                         ,lTYEAR END

 ACEXP          B     ,lCEXCP                                     PP           ANNUALLY            1112199','"
                      Ale Tnal Balance & Exception                             AT YEAR END
                      Report, \l3lidation fund, aeet type,
                      accounl & closing account

  CTBA          B     MTOCTBA                                    PP            ANNUALLY            1112199 " ...
                      Ale Consollidated Trial Balance                          AT YEAR END
                      for ..I 8fY by treasury symbol

  CTBB          B     MTOCTBB                                    pp            ANNUAllY            '112199 " ...
                      Ale CorntQtidated Trial Balance                          AT YEAR END
                      Fpr au 6fY by lreaswy symbol & fund

  CTBC          B     MTOCTBC                                     PP           ANNUALLY            1112199 " ...
                      AlC Consolidated Trial Balance                           AT YEAR END
                      fo(ftscal year XXXX

  OUPS          6     MTOGENOP                                  SAlGL          NIGHTLY            12/15199 " ••,          N
                      General Joumal Dt.lpl4cat~s Report

  ERR02         B     ZIPAYR                                      LO           AFTER EVERYPAY      8114198 " ...          N
                      P/R PNEOT ZIPAYR offline error                           PERIOD
                      messaqe report

 .ERVP           B    ERVPYA                                      ER           ANNUALLY            1126199 " •••
                      1099-MISC Transaction delail
                      (eport 1099A
                             T




.. FATB          B    RERFAT6                                     ER           ANNUALLY            1125199 '. •••
                      FACTS AUlomated Trial
                      Balance(FATB) Report

.. FFTB          B    RERFFTB                                                  ANNUALLY            1/15199 " ...
                      FACTS FFS Trial Balance iFFTB)              ER
                      Report

  FORM           B    ITeFORM                                   CORE           ON REQUEST
                      Define docUments. & tataes
                      & seclOilygrolJllS

 ..FOR2          B    ITCFOR2                                   CORE           ON REQUEST                                 N
                      Define documents &        la~s
                      & securty groups

 . GSGBO         B    RGSGBD                                      GS           NIGHTLY            12/15199 ", ...         N
                      Accepted Balch &        ~menl    Rpi

  MIF            B    ASeMIF                                    SAlAD          NIGHTLY             121&\19 " ' ••         y
                      IMPR~ST   -IFHT 10IFLT mal<hing
                      onor MIX (header to 'ne)

...MOB           B    ASCMOB                                    SAlPE          NIGHTLY             1216199 " ...
                      OBLH10OBlL matching error
                      R.poIl

 .lotTO          B    ASCMTO                                    SAflA          NIGHTLY             9mJ97', ...            N
                      TOHT 10TOlT malching error
                      Repoll

... OLERR        B    ER1099                                      ER           ANNUALLY            lf22J97 " , ••
                      10f:J9I0J omine encr report                              IN JANUARY

...PGMT          C    MTOPGMT                                     as           ONREOUEsT            917/00 ','"
                      PGMT       fecG(ds   report

 ..PPAY          B                                                AD           MONTHLY             1112J99 " '"           Y
                      PromptPaVReport 1 015

... PPAY2        B                                                AD                               1112J99 " •••          y
                      PfOmIllPay Repoll5 of 5                                  MONTHLY

...PPOT          B    ADPPOT                                      AD           MONTHLY             1112199 " •••          'I
                      Prompl Pay Detai Error Report




                                                                                          11-1
APPENDIX II                                                     ITC REPORT unUZA1100
                                                                          1'"
                                                                A' OF IlECEIoIBER 11,   U"
                                                                                                             LAST
lNFOPAC       BASELINEI REPORT DE;scRIPTIQt.l                      SUBSVS FREQUENCV OF REPORT                RUN           U$r=;~ ,lcCESS   usrrc
REPORT 10 cUSToM                                                                                             DATE          TO REPORTS       U5e51

  PPDT!           B     RADPPDT                                      AD                 MONTHLY                   1112199 ','"
                        Prompt Pay      Dela~   Report Sec. I

  PPDT2           B     RADPPDT                                      AD                 MONTHLY                   \ 112199 "   uo


                        ProJTllt Pay Detail Report IIA-E

  PPDTJ           B     RADPPDT                                      AD                 MONTHLY                   11/2199 .....
                        Prompt Pay Delall Report Sec ItF

  PPDT4           B     RADPPDT                                      AD                 MONTHLY                   11/2199 " ...
                        Prompt Pa~ Detaa Report Sec IV

  PPDT6           B     RADPPDT                                      AD                 MONTHLY                   11/2199 ' ... ~
                        Prompt Pay Detail Report Sec V1

.. PRIGJ          6     MTOGENJ                                    SAIGl                NIGHTLY               12116199 ". ...               N
                         Gen-eral Jo.urMtswilllprior
                        AcroulUing Peliod

.. SAGl           B     SAGLBL                                     SAlGL                MONTHLY                   1219199 ' ....            Y
                        General Ledger 6a2Ince rillble                                  ANa
                        General JOI¥MI                                                  DURING
                         sv5lem Assurance Report                                        AlC

.STA62            B     SECURITY                                   SecurilV'            ON REQUEST          aiR                             y


  STAB3           B      SECURITY                                  security             ON REQUEST          O/R                             N


  STABS                  SECURITY                                  Security             ON REQUEST          O/R                             N


    TESTI        CIB     n='ST1 tnru TEST9 was set up              vanous               As needed           AIN
  .TEST2         CIB    in INFOPAC lor the te$ling of                                   As. needed          AlN
    TEST3        CIB    various reports and cwrent re-                                  As,needed           AIN
... TEST4        cia     thai may have changes because                                  As needed           AlN                             y
    TESTS        CIB     of fixes in software as. well es                               As needed           AlN                             y
    TEsT6        CIB     c.h<I~    iJ' custom reports.                                  As needed           AlN                             y
    TESn         CIB     Requests are made by NBC and                                   As neede<l          AlN                             y
    TEST8        CIB     and ITC                                                        As.needOO           AlN                             v
  .TEST9         C/B                                                                    ,6.5needed          AlN                             y


  VIOL            B      Security Vlolation                        5ewr,v               V'.£EKLY
                         Vanguard Security Repc:lrts

 .TREC            B      ADTREC                                       AO                NIGHTLY               12115199 " ...
                         Treasury ReconciMlion otftWle
                         error report

 . 1099A          B      ER1099                                       ER                ANNUAllY                  112319B " ...
                         I099-MiSC Totals Repoll                                        IN JANUARY
                         fo<calendalY yea<)()O(X

.. 10!19f         B      fORl.ll099 loUse                             ER                ANNUALLY                  1/12198 " ...
                                                                                        IN JANUARY

  I099R           B      RER1099                                      ER                ANNUAllY                  11/2/99 " •••             Y
                         1099 Vendors ReqtMlng Adian                                    IN JANUARY
                         Report                                                         ON REQUEST

... 1099W          B     ER1099W                                      ER                ANNUAllY                  lf26199 " ...             Y
                         IQ99..MISC Totals. Report                                      IN JANUARY
                                                                                        ON REqUEST

... 224            B     RER224                                       ER                MONTHLY                   1219199 ','"
                         SF·224 Report
                         Statement of Tr.JIlltiaCtion$.


  Z14AC            B     RER224A                                      ER                MONTHLY                   1219199 " •••             Y
                         Monlhly Colecllon Aotidy

 ,224AO            B     RER224A                                      ER                MONTHLY                   12J!l1!l9 " ...
                         MonIhIyDisbursement AotiIIily

 .2240             B     RER224D                                      ER                MONTHLY                   1219199 " '"              Y
                         AClive File or 224llisll<ne1nenlS
                         and Cole<:tion torlnnsaotions
                         reported on 224




                                                                                                     11-2
APPENDtX II                                              ITC REPORT U11UZA TlON
                                                                  1•••
                                                         AS OF DECEMBER11, lU.
                                                                                             LAsT
INFOPAC   B"SELlNEJ REPORT DESCRIPTION                     SUBSVS FREQUENCY OF REPORT        RUN        USER AccESS    US~TC
REPORT 10 CUSTOM                                                                             DATE       To REPORTS    Uus1

  225         B    STANDARD fORM 225                         ER             MONTHlV            Sep--99 " u,           N
                   REPORT OF OBLIGATlONS

  442         C    ITC442                                    LD             AFTER EVERV        1115199 ','"
                   Payroll OisbibuUon by Social                             PAT PERIOD
                    Sec",", Number
                   {Single PaY' Period)

  444         C     ITC444                                   LD             AFTER EVERY        11I5i99 " ...
                    P ayr~l Oi$lribulio" by Account                         PAY PERIOD
                    (Single Pay Period)

  445         C     ITC445                                   LD             AFTER EVERY        11(5/99 ',' ••
                    PaytoU DisiribuliOn. by Acccunt .                       PAY PERIOD
                    Cumulatille

              C     ITC446                                    LD            AFTER EVERY        1115199 " ,,'
                    Payroll DtstribuHon by Pfogram                          PAY PERIOD
                    (Single Pay Period)

   447        C     ITC447                                    lD            AFTER EVERY        1115199 " •••          y
                    Pa"'f'" DiSrbutioo bV Program -                         PAY PERIOD
                    CurnuialNe

   449        C     ITC449                                   LD             AFTER EVERY       1115199 " ...           '(

                    PavroUCharges by Cost StlUCIU(e                         PAY PERIOD
                    (Siogte Pay Period)

   44911.     C     ITC449A                                   LD            AFTER EVERY        1115199 " ...
                    Payroll Charge:lio bY' Home Organ-                      PAY PERIOD
                    ization (Single Pay Period)

   450        C     ITC4S0                                    LD            AFTER EVERY        1115199 " ...          '(

                    Time/Earnings charyed b)I                               PAY PERIOD
                    Progtam (Single Pay PerkJd)
                    w/Sl.JITIQ"IlI'Y last page

   451        C     ITC04S1                                   LD            AFTER EVERY        1115199 .....          '(

                    TlI'OelEamiogo charyed b)I                              PAY PERIOD
                    Program('r'ear to Date)
                    OIJStmnary 10.. pallO




                                                                                                _
... 545       C     ITC545                                    PE            MONTHlV                                   '(

                    ObOgaUO/ll; by Object CIa...fca-
                    lions

   630        C     ITC630                                    BE            MONTHLY
                                                                                                        ....          N
                    Budget Slalll5 Report

 ... 63011.   C     ITC630A                                  BE             MONTHLY            1112199',...           Y
                    TravelTransactions FYTD by
                    Ql'g-.nizaoon

 ... 630B     C     ITC630B                                   BE            MONTHLY            1112199 ., ...
                    Training Transactions FYTO

   630C        C    ITC630C                                   BE            MONTHLY            11/2/99 " •••
                    Tr.iII..,elTra~        Fym    bv
                    Program

 ... 710      C     ITC710                                    Gl            MONTHLY            121!1199 '. •••
                    Fund Report

   .710A       C    ITC710A                                                 MONTHLY            11/2/99 " ' ••
                    DeJa! Open CommIImeIll                    PE
                    Transaclions FYTD

 ...7108       C     ITC71DB                                                MONTHLY            11/2/99 " ...
                     DetaIl UnliquidaledObligation            PE
                    Tral'l5&Ctioll5 fYTD




                                                                                      ~1-3
APPENrnx II                                                   ITC REPORT uTILIZATIoN
                                                                         nil
                                                              AS OF DECEMBER II, II"
                                                                                                           LAST
INFOPAC      BASELINEI REPORT DESCRIPTION                        SUBSyS    FREQUENCV OF f{EPORT            RUN       USER ACCEsS   USITC
R~PORT    10 CUSTOM                                                                                        oATE      TO REPORTS    Uses?
.RADSP2          B    RADASP                                      AD                 NIGHTLY                12115/99 ' ....
                      Voucher Selection Summary
                      Report

 RGLATF          B    RGLATF                                       Gl                MONTHLY                 1219199 ' .?"
                      SOOlmary   Tr~1
                                    Balance by Fund
                      forAccounting Pencd XX!X)(

 RPEACR          B    RPEACR                                       PE                MONTHLY                 11/2/99 ' ....
                      Conh'ad Report as of XXJX.XJX.XXX

 RTAATA          B     RTAATA                                      TA                MONTHLY                 1112199 " ...         .(

                      iravel AdvahCeReport

 SADBAl          B     SADBAl                                    SAIGL               MONTHLY                12/15199 ' .""         y
                       Detailed cereret Jouroallnlernal
                       C(l~eocVJlntegrily Report
                       System Ass.urance

.SADPST          B     SADPST                                    SAlGL               MONTHLY                12/15/99 " ...         y
                       Dellilted SystemAWj.Urance
                       Joumal FI~ - Qoclment Suspense
                       C~ocy Report. VerifiGalion
                       all accepte<:l docshavebeen recorded
                       on lhe General Journal

.SATRVL          6     SATRVL                                      TA                MONTHLY                 1111199 ',."
                       Travel Tranwcliof\S. System
                       Assurance Report
                       Tra....elobligaljons


USER AccfsS
                                                                          Totals for Report Types                                       R....,LM
              JOANNE SMITH                                                                                                                  Sutm'OllV
              KIM M. HOLLAND                                              Basetine        59                                            y               7.
              MIRA G. SMITH                                               Custom          22                                          N                 11
              PATRICIA E. KATSOUROS                                       Either     ___9                                          TOTAL                00
              QUEEN E.COX                                                  Total       90
              TELESFORO R CORDOBA
              WILLIAM KUNlZ
              ZENA S BREEDEN

              QUEEN E COX
              PATRICIA E KATSOUROS
              MIRA G. SMITH
              DEBI J. ROSENfiELD
              COR LA R. REEVES
              JOANNE f.SWARlZ

              ITe PERSONNEL
              FSD PERSONNEL




                                                                                                    11-5
              APPENDIX III

REVISED SAMPLE RESOURCE UTILIZATION REPORT
APPENDIX III

                                     RESOURCE UTILIZAliON REPORT
                            For Month Ended 12/31/99 - 25% of Fiscal Year Elapsed

Cost Center/Office -1101 Communications Mgt. Dept.

Part I - Total Obligations by Budget Object Classification




2563           Telecom Eqp.          1200      25000         50000   50.00%
2100           Travel                 500       3000         15000   20.00%
2541           Training                  o      1000          5000   20.00%
       TOTAL                         1700      29000         70000   41.43%



Part II - Total EIC.penditures by BUdget Object Classification




2563           Telecom Eqp.          1200      25000         50000   50.00%
2100           Travel                 500       3000         15000   20.00%
2541           Training                  o      1000          5000   20.00%
       TOTAL                         1700      29000         70000   41.43%


PART III - Total Personnel Hours by Labor Code




6A             Info Res Mgt           120         360         1200   30.00%
7A             Admin. MGT              80         320         1000   32.00%
12A            Leave                   40          40
       TOTAL                          240         720         2200_




                                                     111-1
Part IV - Employee Hours by Labor Code For December, 1999




Doe,J                           80                              60                        160
Jones,M            60                                    60                               160
Smith,T                         80                                      80                160
  Total            60           160                      80     60      60                460




Part V - Employee Hours by Labor Code For FY 2000 Through PIP Ending 01/01/00




Doe,J                           360                             120                       480
Jones,M            320                     80            80                               480
Smith,T                         160                             240     80                480
  Total            320          520        80            80     360     80                1440


Part VI - Employee Data - FY 2000 Through PIP Ending 01101100




Doe,J              500                     24            120           720
Jones,M                         450        24            90     24     650
Smith,T           1000                     48            60            200
  Total           1500          450



Part VII - Commission-wide Employee Hours by Labor Code· FY 2000 Through PIP Ending 01/01/00




DIG
DAD
OlD
OGC
etc.
    Total




                                                 111-2
    APPENDIX IV

MEMORANDUM (AD-X-065)
                                                                Appendix IV




UNITED STATES INTERNATIONAL TRADE COMMISSION
                            WASHINGTON. DC 20436


June 30, 2000                                               AD-X-065

MEMORANDUM

TO:             Acting Inspector General

FROM:           Stephen A. McLaughlin, Director
                Office of Administration

SUBJECT:        Response to Draft Report OIG-AR-04-00: Evaluation of
                Personnel/Payroll and Financial Services Provided to the Commission by
                the Department of the Interior

This memorandum is the Office ofAdministration's response to the DraftReport:
Evaluation of Personnel/Payroll and Financial ServicesProvided to the Commission by
the Department of the Interior. I have reviewed the draft audit report and am in general
agreement with the findings and recommendations.

The Inspector General recommends that the Director, Office of Administration:

l. Should insure attendance of at least I Commission representative at all FPPS
and FFS user group meetings and require attendee to circulate a report of user
group meetings to appropriate personnel in OIS, PN and OFB.

Response: Agree

Completed. The Office of Administration will insure attendance at all user group
meetings and will circulate a reporton those meetings to interested parties.

2. Should designate a person in the Office of Personnel to serve as a point of
contact for FPPS and to coordinate on all budget and management actions relating
to FPPS.

Response: Agree

Completed. The Director of Personnel will serve as point of contact.
                                      2

3. Should request DIS to designate a person in OIS to serve as
Contracting Officer's Technical Representative for the 001 contract.

Response: Agree

AD and OIS will coordinate in the designation of a COTR for the DOl contract
by July 30, 2000.

4. Should designate a person in his office to serve as coordinator for all
requests for customized reports from 001.

Response: Agree

Completed. The Director of AD has appointed his special assistant to serve as
coordinator for all custom report requests and all other requests that require
expenditure of DOlstaff time or other resources above that used for routine
operations.

5. Should request periodic reporting of actual costs of FFS services being
provided to the Commission.

Response: Agree

AD is addressing this issue in the FY 2001 negotiations with 001. Action on
this recommendation should be completed by September 30,2000.

6. Should update Commission Directive 2201.1 to reflect current time,
attendance and payroll policies and procedures.

Response: Agree

The directive will be updated by November 1,2000.

7. Should conduct a comparative review of alternative service providers,
such as the National Finance Center and GSA to verify the continued
competitiveness of DOl's services.

Response: Agree

AD will conduct a comparative analysis of otherserviceproviders and will
request the assistance ofOIS in evaluatingour options. Action on this
recommendation should be completed by December I, 2000.

8. Should request the assistance orOIS to determine whether the
Commission's Internet connection can be used to replace the current
                                      3

telecommunications linkage to NBC, Denver.

Response: Agree:

Completed. AD and O[S have held discussions with 001 and evaluated the
costs and benefits of using the Internet vs. the commercial telecommunications
link to Denver. A final decision has not been made for FY 2001. In either
case, we will continue to evaluate our telecommunication options as technology
and our needs evolve.

9. Should negotiate a reduction in the number ofW-2s used by NBC as
the basis for FY 2000 FPPS charges to the Commission.

Response: Agree

Completed. NBC has agreed to reduce the number ofW-2 ls estimated for FY
2000 to 470.

10. Should request that NBC promptly implement Commission policy on
maintenance of compensatory time balances.

Response: Agree

In fact, this matterwas broughtto the attention of 001 by the Office of Finance
several years ago and is currently on theirworkload plan report. AD will
continue to seek resolution with DOl and press fortimely implementation.
Actionon this recommendation should be completed by September 30, 2000.

11. Should request that DOl provide periodic reports bye-mail or FAX
containing the information identified in Appendix III to each office,
division and branch head in the Commission.

Response: Agree

At this time, AD proposes providing the information to the Office Director
level. O[S is assisting in the identification of the application and format by
which to provide this data. Furtherdissemination of the information can occur
at any time that it becomes necessary or useful. The labor cost information has
been downloaded and imported in a database format on the Commission's
Intranet and will be available by July 15,2000. Action on this recommendation
should be completed by October I, 2000.

12. Should prepare a plan detailing the requirements, objective, schedule
and costs for the OFB data warehouse project. The plan should consider
the integration of FPPS and FFS into a single data warehouse accessible to
                                        4

USITC personnel by a browser-based query tool such as Brio Insight.

Response: Agree

AD will complete its' comparative analysis of existing data warehouses
maintained by other DOl customers and will prepare a document outlining the
requirements and objectives of a USITC data warehouse. If the cost analysis
show the project is financially feasible, i.e, benefits outweigh the costs and the
financial resources are available, we will proceed with a detailed project
schedule and cost analysis. Any data warehouse development plans will of
course include integration FPPS, FFS and the procurement system. Action on
this recommendation should be completed by December I, 2000.

13. Should prepare a plan for procuring any additional hardware,
software, and telecommunications resources needed to provide
Commission personnel with timely, automated access to relevant
information from FPPS and FFS.

Response: Agree

AD has and will continue to coordinate any hardware, software or
telecommunications need with OIS in order to facilitate timely access to FPPS
and FFS data. AD procurement needs for FY 2001 will be communicated to
OIS by July 20, 2000.

14. Should review all reports currently being produced for the
Commission by DOl and eliminate those not currently being used and
reduce the frequency of, or change the status to 'as requested', those
reports that are being seldom used.

Response: Agree

The usefulness and frequency of these reports will be reviewed by the Director
of Finance. Action on this recommendation shouldbe completed by
September I, 2000.

IS. Should develop a plan for implementing an integrated procurement
subsystem for FFS which includes electronic commerce functionality.

Response: Agree

AD will research and evaluate the options available to us for integrating the
procurement system into FFS. However, any implementation of this project
must take into consideration its' costs, benefits, and the possibility of changing
service providers. This is not a high priority item for AD and is subject to
                                       5

budgetary constraints. Action on this recommendation should be completed by
November 1, 2000.

16. Should develop a plan for implementing an integrated budget
formulation subsystem for FFS that automates appropriated budget
formulation tasks, allows information interchange with other FFS
subsystems, and meets the requirements of GPRA.

Response: Agree, with reservations

AD will research and evaluatethe options available to us for integrating a
budget formulation subsystem with FFS. However, implementation ofthis
effort must take into consideration its' costs and benefits, as well as the
possibility of changing service providers. This is not a high priority item for
AD and is subject to budgetary constraints. Action on this recommendation
should be completed by November I, 2000.

17. Should implement the employee self-service personnel data service
currently available from OPM through 001.

Response: Agree

AD is exploring the necessary steps to implement the self-service option
available from DOl and, barring any extraordinary technical obstacles or costs,
will implement the system. Action on this recommendation should be
completed by October 1,2000.                                    .

18. Should plan and conduct a joint evaluation of the FPPS data mart that
recently became available through FPPS.

Response: Agree

AD will conduct a complete an evaluation of the costslbenetits of the datamart
with assistance from OIS. Action on this recommendation should be
completed by September 30, 2000.

19. Should begin using FPPS to automatically generate the personnel
reports currently being manually produced by the Office of Personnel.

Response: Agree

AD is exploring the necessary steps to utilize FPPS in automatically generating
personnel reports and, barring any extraordinary technical obstacles or costs,
will implement the system to the extent practicable. Not all data included in
routine personnel reports is available on FPPS at this time. Action on this
                                     6

recommendation should be completed by November 30, 2000.

20. Should implement the SF-52 processing and training records services
offered by FPPS.

Response: Agree

AD is exploring the necessary steps to implement an automated SF-52 and
training records system with 001 and, barring any extraordinary technical
obstacles or costs, will implement the system. Action on this recommendation
should be completed by January 30, 200 I.

21. Should evaluate the FFS subsystems not presently being used by the
Commission and determine whether the Commission should begin using
any of them.

Response: Agree

The Director of Finance will evaluate any subsystems not presently used by the
Commission and will determine their relative usefulness to the Commission's
financial management. Action on this recommendation should be completed by
September 1, 2000.




Approve:    V                              Disapprove:       _


                                            I17-D$'-       tiD
                                           Date

cc:    The Commission
       Director,Officeof Finance
       Director, Officeof Personnel
       Director, Officeof Information Services
